No. 19-_____

IN THE

Supreme Court of the United States

CHRISTOPHER EDWARD MCMILLEN, AN INCAPACITATED PERSON,
Applicant,
v.
NEW CANEY INDEPENDENT SCHOOL DISTRICT,
Respondent.

APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Terry P. Gorman
GORMAN LAW FIRM, PLLC
901 Mopac Expressway South
Barton Oaks Plaza One,
Suite 300
Austin, TX 78746

Shay Dvoretzky
Counsel of Record
Alex Potapov
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Applicant
November 26, 2019

APPLICATION
To the Honorable Samuel A. Alito, Jr., Associate Justice of the United States
and Circuit Justice for the Fifth Circuit:
1.

Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and

30, Applicant Christopher Edward McMillen respectfully requests a 30-day extension
of time, up to and including Thursday, January 30, 2020, to file a petition for a writ
of certiorari to review the decision of the U.S. Court of Appeals for the Fifth Circuit.
The Fifth Circuit issued its opinion and entered judgment on October 2, 2019. A copy
of that opinion is attached as Appendix A. The jurisdiction of this Court in this case
will be invoked under 28 U.S.C.§ 1254(1), and the time to file a petition for a writ of
certiorari will otherwise expire on December 31, 2019. This Application for Extension
of Time is timely because it has been filed on November 26, 2019, more than ten days
prior to the date on which the time for filing the petition is to expire.
2.

Applicant has good cause for an extension of time. Applicant only re-

cently retained Shay Dvoretzky of Jones Day in Washington, DC, to prepare his petition for a writ of certiorari. Over the next several weeks, counsel is occupied with
briefing deadlines and arguments for a variety of matters, including:
a.

December 2, 2019: Amicus brief due before this Court on behalf of the
Chamber of Commerce in Charter Communications, Inc. v. Gallion, No.
19-575;

b.

December 6, 2019: Oral argument in Glasser v. Hilton Grand Vacations
Co., No. 18-14499 (11th Cir.);

1

c.

December 6, 2019: Brief due in Buchanan v. Sirius XM Radio Inc., No.
19-10986 (5th Cir.);

d.

December 23, 2019: Petitioner’s reply brief due before this Court in C.D.
v. Natick Public School District, No. 19-229;

e.

January 6, 2020: Brief in opposition due before this Court in AER Advisors Inc. v. Fidelity Brokerage Services, No. 19-347;

f.

January 17, 2020: Reply brief due in Bernstein v. Virgin America, Inc.,
No. 19-13582 (9th Cir.); and

g.

January 21, 2020: Oral argument before this Court in GE Energy Power
Conversion France SAS v. Outokumpu Stainless USA LLC, No. 18-1048.

Applicant therefore respectfully requests that an order be entered extending
the time to file a petition for a writ of certiorari by 30 days, up to and including January 30, 2020.
November 26, 2019

Respectfully submitted,
/s/ Shay Dvoretzky

Terry P. Gorman
GORMAN LAW FIRM, PLLC
901 Mopac Expressway South
Barton Oaks Plaza One,
Suite 300
Austin, TX 78746

Shay Dvoretzky
Counsel of Record
Alex Potapov
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Applicant

2

